January 28, 2010

GLORIA E. TYSON
MANAGER, CHICAGO CUSTOMER SERVICE DISTRICT

SUBJECT: Management Advisory – Handling and Transportation
         of Large and Lightweight First-Class Mail Parcels
         (Report Number NL-MA-10-001)

This report presents the results of our self-initiated review of the U.S. Postal Service’s
handling and transportation of large and lightweight First-Class Mail® (FCM) parcels in
the Chicago District (Project Number 09XG015NL001).1 Our objective was to determine
whether the Postal Service properly processed, handled, and transported the large and
lightweight FCM parcels. This audit addresses financial risk. See Appendix A for
additional information about this audit.

Conclusion

The Postal Service mishandled and improperly processed large and lightweight FCM
parcels at two facilities. This resulted in employees incorrectly placing FCM parcels on
Federal Express (FedEx) transportation instead of less expensive surface
transportation. This occurred because mail processing personnel were not following
established procedures and policies for processing, handling, and assigning mail to the
proper transportation mode.

Consequently, the Postal Service incurred about $24,000 in unnecessary transportation
costs for a 12-month period. By curtailing these practices, the Postal Service could
save approximately $48,000 over the next 2 years. While management took action
during our site visits to address the issue, they still need to reinforce existing policies
and procedures to ensure continued compliance. See Appendix B for our detailed
analysis of this topic.

We recommend the manager, Chicago Customer Service District:

1. Reinforce established policies and procedures for processing, dispatching, and
   assigning First-Class Mail parcels at the Irving Park Road Processing and
   Distribution Center and the Chicago O’Hare Airport Mail Center.

1
 This report resulted from observations during fieldwork conducted for our Chicago O’Hare Airport Mail Center
Operations audit (Report Number NL-AR-09-011, dated September 30, 2009).
Handling and Transportation of Large and Lightweight                         NL-MA-10-001
 First-Class Mail Parcels



Management’s Comments

Management agreed with the finding and recommendation. Management stated they
began corrective actions in December 2009 by providing service talks and guidance,
instruction, and oversight for handling the specific mail types. In addition, management
stated they would place additional signage near mail assignment scan stations on the
workroom floor as a visual aid and will conduct random audits to monitor compliance
with the procedures. See Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendation and management’s corrective actions
should resolve the issues identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, director,
Transportation, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Jordan M. Small
    Jo Ann Feindt
    Jacqueline M. Krage
    Ruby Branch
    Olivia M. Martinez
    Melvin J. Anderson
    Sally A. Haring




                                                   2
Handling and Transportation of Large and Lightweight                                   NL-MA-10-001
 First-Class Mail Parcels



                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Customers mail a variety of products through the Postal Service. For example, one
customer mails a number of large and lightweight products including:

   FCM parcels – the majority of which are composed of large, lightweight, clear plastic
    sacks of "packing peanuts."




              Sacks of “packing peanuts” from the             Close-up of a mailing label,
                           customer,                               August 31, 2009
                        August 31, 2009


   Priority Mail® parcels – "bubble-wrap" or thin sheets of foam for shipping fragile and
    semi-fragile items.




                             Priority Mail parcels from the customer,
                                        August 31, 2009




                                                   3
Handling and Transportation of Large and Lightweight                            NL-MA-10-001
 First-Class Mail Parcels


This mail is typically deposited on most business days at a local mail facility where it’s
transported and processed at the Irving Park Road Processing and Distribution Center
(P&DC), located adjacent to the Chicago O'Hare Airport Mail Center (AMC).

OBJECTIVE, SCOPE, AND METHODOLOGY

Our audit objective was to evaluate whether the Postal Service properly processed,
handled, and transported large and lightweight FCM parcels.

We interviewed officials and employees from the Postal Service at the Irving Park Road
P&DC and the Chicago O’Hare AMC. We examined relevant Postal Service policies
and procedures and other related documents, including:

   Domestic Mail Manual (DMM) 300, Notice 123, for FCM parcel postage rates.
   DMM 300, Section 401, Additional Physical Standards by Class of Mail.
   Decoupling of Priority Mail and FCM, dated May 24, 2006.
   National Dispatch Instructions #LO SOP200901, dated March 9, 2009.

We also examined Postal Service computer-generated data and customer-generated
data from a third-party postage vendor and used these to analyze dispatch plans, mail
volume, and postage payments. We analyzed data in the Networks Intranet, specifically
the Distribution Table Maintenance System.

We conducted limited analyses to determine if management could improve processes
and, as a result, reduce transportation costs. We did not audit or comprehensively
validate the data. However, we supported our audit conclusions by examining source
documents. We also observed, inspected, and photographed operations and applied
reasonable estimates or approximations to these operations. We talked to local
management officials and craft employees throughout our audit, asked for feedback and
perspective, and included their comments where appropriate. We applied conservative
principles to our cost savings estimates and considered management’s comments
where appropriate.

We conducted this review from May 2009 through January 2010 in accordance with the
President’s Council on Integrity and Efficiency, Quality Standards for Inspections. We
discussed our observations and conclusions with management officials on November 3,
2009, and December 16, 2009, and included their comments where appropriate.

PRIOR AUDIT COVERAGE

The OIG issued no previous reports with findings similar to those in this report.




                                                   4
Handling and Transportation of Large and Lightweight                                                     NL-MA-10-001
 First-Class Mail Parcels


                                    APPENDIX B: DETAILED ANALYSIS

Processing, Handling, and Transportation of FCM Parcels

We observed different occasions where Postal Service personnel mishandled and
improperly processed large and lightweight FCM parcels at two facilities. Specifically,
we found that:

      In some cases, FCM parcels were incorrectly transported to the Priority Mail
       “outsides"2 operation at the Irving Park Road P&DC where they were subsequently
       mishandled and improperly processed. Employees mistakenly treated these parcels
       as Priority Mail and sent them to the Chicago O’Hare AMC for transportation on
       FedEx.

      In other cases, FCM parcels were not placed (handled) in FCM sacks prior to being
       sent to the Chicago O’Hare AMC and personnel improperly assigned the mail for
       transportation on FedEx.

We confirmed with craft employees at both facilities that mail was routinely handled and
dispatched in this manner because personnel did not follow established policies and
procedures.




    FCM parcels in the wrong operation “Priority                              Close-up of the overhead sign.
Outsides Belt Staging Area,” Irving Park Road P&DC,
                  August 31, 2009

According to established Postal Service policies and procedures, FCM parcels should
be processed separately from Priority Mail and placed inside FCM sacks by mail
processing operations to avoid the excessive handling and transport costs of providing
Priority Mail service while only receiving FCM rates. These parcels should not be
placed in Priority Mail sacks or mailed as Priority Mail outside parcels.


2
    “Outsides” are parcels or packages that will not fit into Priority or FCM sacks.




                                                               5
Handling and Transportation of Large and Lightweight                               NL-MA-10-001
 First-Class Mail Parcels




                                                       FCM outside parcels in a
                                                       mail container that would
                                                        be flown on FedEx. To
                                                             ensure proper
                                                          transportation, the
                                                       parcels should be placed
                                                             in FCM sacks.

                                                       Photo taken at the Irving
                                                         Park Road P&DC on
                                                          August 31, 2009.




As a result of improper handling and processing of mail, the Postal Service incurred
unnecessary transportation costs of about $24,000 by using FedEx rather than less
expensive surface transportation. We estimate the Postal Service could save about
$48,000 over the next 2 years by discontinuing the mishandling practices.
See Appendix C.

Management’s Actions

Managers at the Irving Park Road P&DC and the Chicago O’Hare AMC recognized
these problems and instructed operations supervisors to ensure mail was properly
prepared for assignment on the correct mode of transportation. However, our
observations and monitoring of operations showed that these practices were not fully
curtailed.




                                                   6
Handling and Transportation of Large and Lightweight                                               NL-MA-10-001
 First-Class Mail Parcels



                               APPENDIX C: MONETARY IMPACTS

                Finding                      Impact Category                             Amount
              FCM Parcels            Unrecoverable Questioned Costs3                      $23,945
                                     Funds Put to Better Use4                             $47,890

                                     TOTAL                                                 $71,835

We performed a limited analysis of postage records for a Postal Service customer for
the period August 2008 through July 2009. During this period, we estimated that 852 of
these large and lightweight FCM parcels were transported on the FedEx Day Turn
network as Priority Mail (at a cost of at least $28.11 each) instead of on existing space-
available surface transportation at no additional cost. We estimated that the
unnecessary transportation cost for these 852 FCM parcels was $23,945. By curtailing
these practices, the Postal Service could save approximately $47,890 over the next 2
years.




3
  Unrecoverable costs are unnecessary costs, such as the cost of flying mail on FedEx that should have been on
surface transportation. (Period covered August 2008 through July 2009. We found 852 parcels at $28.11 a piece =
$23,945.)
4
  Funds the Postal Service could use more efficiently for the next 2 years by implementing the recommendation.




                                                        7
Handling and Transportation of Large and Lightweight       NL-MA-10-001
 First-Class Mail Parcels


                       APPENDIX D: MANAGEMENT’S COMMENTS




                                                   8
Handling and Transportation of Large and Lightweight   NL-MA-10-001
 First-Class Mail Parcels




                                                   9
Handling and Transportation of Large and Lightweight    NL-MA-10-001
 First-Class Mail Parcels




                                                   10
Handling and Transportation of Large and Lightweight    NL-MA-10-001
 First-Class Mail Parcels




                                                   11
